September 28, 2001

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT: 	Audit Report – Postal Inspection Service Fraud
         Against Government Program (Report Number OV-AR-01-004)

This report presents the results of our self-initiated audit of the Postal Inspection Service
Fraud Against Government Program (Project Number 00JA011OV000). Our objectives
were to determine the Inspection Service’s authority to conduct fraud against
government investigations, whether the investigations benefited the Postal Service, and
whether associated statistics were accurately captured and reported. This report is the
first in a series of reports addressing the Inspection Service’s fraud program. This audit
was included in our fiscal year (FY) 2001 audit workload plan.

The audit revealed that the Inspection Service is authorized by statute to investigate
fraudulent activity directed at other government agencies; however, these investigations
are not intended to improve the financial viability or support the performance goals of
the Postal Service. The Inspection Service reported that its investigations under the
fraud against government program assisted in obtaining $491 million in fines and
restitution; however, they did not report that only $2.9 million of these funds were due to
be provided to the Postal Service. We also found that we could not determine the
accuracy of arrest and conviction statistics reported by the Inspection Service because
it did not fully document the extent of its involvement in fraud against government
investigations. We recommended that Inspection Service management require the
separate reporting of fines and restitution due to the Postal Service; fully document the
investigative activity conducted on task forces and joint investigations; and ensure that
arrest and conviction statistics are only reported when the Inspection Service motivates
and materially contributes to the investigation.

Management provided comments to the report and partially agreed with our
recommendations. Management stated that they will explore the feasibility and cost
effectiveness of modifying their existing database information system to track and report
fines and restitution due to the Postal Service. Management further stated that they are
conducting a case file improvement initiative to assist in ensuring the appropriate
documentation of investigative activity and reporting of arrest and conviction statistics.
Management’s comments and our evaluation of these comments are included in the
report.
The Office of Inspector General (OIG) considers recommendation 1 as unresolved and
plans to pursue it through the formal audit resolution process.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until OIG provides written confirmation that the
recommendation can be closed. We appreciate the cooperation and courtesies
provided by your staff during the review. If you have any questions or need additional
information, please contact Cathleen A. Berrick, director, Oversight, at (703) 248-4543,
or me at (703) 248-2300.



Kirt West
Assistant Inspector General for
 Congressional and Oversight

cc: 	John M. Nolan
     James J. Rowan, Jr.
     Kenneth W. Newman
     John R. Gunnels
Postal Inspection Service                                                    OV-AR-01-004
 Fraud Against Government Program



                                TABLE OF CONTENTS
   Executive Summary

   Part I

   Introduction                                                                    1


     Background                                                                    1

     Objectives, Scope, and Methodology                                            1

     Prior Audit Coverage                                                          2


   Part II

   Audit Results                                                                   3


     Authority Exists to Conduct Fraud Against Government Examinations             3


     Separate Reporting of Fines and Restitution Due to the Postal Service         6

     Recommendation                                                                7

     Management’s Comments                                                         8

     Evaluation of Management’s Comments                                           8


     Accuracy of Arrest and Conviction Statistics                                 10

     Recommendations                                                              11

     Management’s Comments                                                        11

     Evaluation of Management’s Comments                                          12


   Appendix A. Statistical Sampling for Fraud Against Government                  13

   Appendix B. Management’s Comments                                              16





                                    Restricted Information
Postal Inspection Service                                                        OV-AR-01-004
 Fraud Against Government Program


                                EXECUTIVE SUMMARY
Introduction	               This report presents the results of our self-initiated audit of
                            the Postal Inspection Service Fraud Against Government
                            Program. Our objectives were to determine the Inspection
                            Service’s authority to conduct fraud against government
                            investigations, whether the investigations benefited the
                            Postal Service, and whether associated statistics were
                            accurately captured and reported. This report is the first in
                            a series of reports addressing the Inspection Service’s fraud
                            program. We initiated this review as part of the Office of
                            Inspector General (OIG) statutory responsibility to provide
                            oversight of the Postal Inspection Service.

Results in Brief	           The audit revealed that the Inspection Service investigates
                            fraudulent activity directed at other federal, state, and local
                            government agencies under its fraud against government
                            program. The Inspection Service participates in these
                            investigations, under statutory authority, because the
                            fraudulent activity involves information passing through the
                            United States mail, but otherwise does not impact the Postal
                            Service. These investigations are not intended to improve
                            the financial viability or support the performance goals of the
                            Postal Service, but rather help ensure that the mail provides
                            a safe and secure method to carry out commerce, and is not
                            used to further illegal activity. We will continue to assess
                            the Inspection Service’s support of Postal Service goals
                            during our reviews of the Inspection Service’s fraud against
                            business and consumer programs.

                            The audit also revealed that the Inspection Service reported
                            $491 million in fines and restitution resulting from fraud
                            against government investigations which it participated in,
                            but did not report that only $2.9 million of these funds were
                            due to be provided to the Postal Service. We also found
                            that the accuracy of arrest and conviction statistics, reported
                            by the Inspection Service, could not be determined because
                            the Inspection Service did not fully document the extent of
                            its involvement on fraud against government investigations.
                            Without the separate reporting of fines and restitution due to
                            the Postal Service and assurance of the accuracy of arrest
                            and conviction statistics, the benefit of the Inspection
                            Service’s involvement in investigations with other




                                                i
                                     Restricted Information
Postal Inspection Service                                                          OV-AR-01-004
 Fraud Against Government Program


                            government agencies could be misinterpreted by Congress,
                            the Board of Governors, and Postal Service management.
                            Full documentation of case activity would also provide better
                            information for Inspection Service management to use in
                            assessing the appropriate allocation of resources to these
                            investigations.

Summary of                  We recommended that management require the separate
Recommendations             reporting of fines and restitution due to the Postal Service;
                            fully document the investigative activity conducted on task
                            forces and joint investigations; and ensure that arrest and
                            conviction statistics are only reported when the Inspection
                            Service motivates and materially contributes to the
                            investigation.

Summary of                  Management partially agreed with our recommendation to
Management’s                separately report fines and restitution due to the Postal
Comments                    Service, stating that they will explore the feasibility and cost
                            effectiveness of modifying their existing database
                            information system to track and report this information.

                            Management agreed with our recommendations to fully
                            document the investigative activity conducted on task forces
                            and joint investigations, and ensure that arrest and
                            conviction statistics are only reported when the Inspection
                            Service motivates and materially contributes to the
                            investigation. Management further stated that they are
                            conducting a case file improvement initiative, scheduled to
                            continue into fiscal year 2002, to assist in ensuring the
                            appropriate documentation of investigative activity and
                            reporting of arrest and conviction statistics. Management’s
                            comments, in their entirety, are included in Appendix B of
                            this report.




                                                ii
                                     Restricted Information
Postal Inspection Service                                                         OV-AR-01-004
 Fraud Against Government Program


Overall Evaluation of       Management’s comments regarding the separate reporting
Management’s                of fines and restitution due to the Postal Service are not fully
Comments                    responsive to the recommendation. The Inspection Service
                            already maintains an ad hoc system that separately tracks
                            fines and restitution due to the Postal Service. Further,
                            Inspection Service officials stated that this system can
                            provide accurate information for reporting purposes. If the
                            Inspection Service determines that it is not cost effective to
                            modify their existing database information system to track
                            this information, we believe that they should utilize their
                            existing ad hoc system for this purpose. Accordingly, we
                            view this recommendation as unresolved and plan to pursue
                            it through the formal audit resolution process.

                            Management’s comments regarding the documentation of
                            their investigative activity and reporting of arrest and
                            conviction statistics are responsive to the recommendations.




                                               iii
                                     Restricted Information
Postal Inspection Service                                                                               OV-AR-01-004
 Fraud Against Government Program


                                         INTRODUCTION
Background                        The Postal Inspection Service is authorized by federal laws
                                  and regulations to investigate and enforce over 200 federal
                                  statutes related to crimes against the United States mail, the
                                  Postal Service, and its employees. Under this authority, the
                                  Inspection Service investigates crimes in which the United
                                  States mail is used to further a scheme, whether originating
                                  from the mail, by telephone, or on the Internet.

                                  The fraud program is the second largest Inspection Service
                                  criminal program and one of the most visible. The
                                  Inspection Service categorizes mail fraud into three broad
                                  victim types: fraud against government, fraud against
                                  business, and fraud against consumers. The objective of
                                  the fraud program is to protect the Postal Service and the
                                  American public from being victimized by fraudulent
                                  schemes where the use of the mail is an essential part of
                                  the scheme.

                                  Resources allocated to the fraud against government
                                  program represented approximately 46 staff years during
                                  fiscal year (FY) 2000. The program accounts for
                                  16 percent of fraud resources, or 3 percent of total
                                  Inspection Service program resources.1 According to the
                                  FY 2000 Annual Report of Investigations, the Inspection
                                  Service conducted 622 investigations within the fraud
                                  against government program, resulting in 419 arrests and
                                  359 convictions.2

                                  Title 18, United States Code, Section 1341, Mail Fraud
                                  Statute, defines fraud as a scheme that uses the United
                                  States mail to obtain money or property by means of false
                                  or fraudulent representation. This statute was expanded in
                                  1994 to include the delivery by any private or commercial
                                  interstate carrier.

Objectives, Scope,                Our objectives were to determine the Inspection Service’s
and Methodology                   authority to conduct fraud against government
                                  investigations, whether the investigations benefited the
                                  Postal Service, and whether associated statistics were
                                  accurately captured and reported. To accomplish our

1
  A staff year equals the total number of hours worked by a postal inspector during a fiscal year. We
calculated FY 2000 staff years by dividing the total number of hours expended on the fraud against
government program by the average number of hours per inspector staff year.
2
  Convictions may be as a result of arrests made during FY 2000 or prior reporting periods.
                                                     1
                                          Restricted Information
Postal Inspection Service                                                                             OV-AR-01-004
 Fraud Against Government Program


                                  objectives, we statistically selected and reviewed 50 fraud
                                  against government investigations closed between
                                  October 1997 and August 2000.3 Specifically, we reviewed
                                  associated criteria, closed case files, Inspection Service
                                  database case summary reports, and program work hours.
                                  We interviewed Postal Service Headquarters officials from
                                  the Strategic Planning Office. We also interviewed
                                  headquarters Inspection Service personnel from the Fraud,
                                  Child Exploitation and Asset Forfeiture group, and the
                                  Strategic Planning and Management Process group. See
                                  Appendix A for the detailed sampling plan.

                                  In addition, we benchmarked with officials from the Federal
                                  Bureau of Investigations, Housing and Urban Development
                                  Office of Inspector General, Social Security Administration
                                  Office of Inspector General, Defense Criminal Investigative
                                  Service, and Naval Criminal Investigative Service to
                                  determine their procedures for documenting investigative
                                  activity and capturing and reporting fraud program
                                  statistics.4

                                  We conducted the audit from September 2000 through
                                  September 2001 in accordance with generally accepted
                                  government auditing standards. We reviewed management
                                  controls as they related to the audit objectives. We
                                  assessed the accuracy of data contained in the Inspection
                                  Service database and determined that it was sufficient to
                                  support our audit conclusions. We discussed our
                                  conclusions and observations with management officials
                                  and included their comments, where appropriate.

Prior Audit Coverage              We did not identify any prior audits or reviews related to the
                                  objectives of this audit.




3
  Our original sample included 51 closed case files. We did not review one closed case file because
Inspection Service officials were unable to locate the file.
4
  Information obtained from other federal agencies was self-reported and was not independently verified.
                                                     2
                                          Restricted Information
Postal Inspection Service                                                                 OV-AR-01-004
 Fraud Against Government Program


                                        AUDIT RESULTS
Authority Exists to                The Inspection Service investigates fraudulent activity
Conduct Fraud                      directed at other federal, state, and local government
Against Government                 agencies under its fraud against government program. The
Investigations                     Inspection Service participates in these investigations
                                   because the fraudulent activity involves information passing
                                   through the United States mail, but otherwise does not
                                   impact the Postal Service. The Inspection Service generally
                                   conducts these investigations either jointly with the affected
                                   agency or as part of a task force involving numerous
                                   agencies.

                                   The Inspection Service participated in task forces and joint
                                   investigations of fraud committed against other government
                                   agencies for a projected 211,782 of the 231,8975 work
                                   hours expended on its fraud against government program
                                   from October 1997 through August 2000. These
                                   investigations included:

                                       •	 A government employee improperly receiving
                                          benefits under government programs, including
                                          public housing subsidies, food stamps, and Pell
                                          grants.

                                       •	 A social worker improperly obtaining public 

                                          assistance, such as food stamps.


                                       •	 A trading post on a Native American Reservation and
                                          its customers not paying applicable taxes on
                                          cigarettes sent through the mail.

                                       •	 An individual improperly receiving unemployment
                                          benefits.

                                   Title 18, United States Code, Section 3061, Investigative
                                   Powers of Postal Service Personnel, grants postal
                                   inspectors the authority to enforce laws regarding property
                                   in the custody of the Postal Service, property of the Postal
                                   Service, the use of the mails, and other Postal Service
                                   offenses.




5
    The 231,897 work hours excludes work hours dedicated to area cases.
                                                     3
                                          Restricted Information
Postal Inspection Service                                                         OV-AR-01-004
 Fraud Against Government Program


                            The Inspection Service participated in task forces and joint
                            investigations based on this authority, even though the fraud
                            was not directed at the Postal Service.

                            The Inspection Service’s fraud against government program
                            is not designed to improve the financial viability of the Postal
                            Service, or directly support the Postal Service’s
                            performance goals of affordability, growth, and flexibility.
                            These performance goals, as contained in the U.S. Postal
                            Service Five-Year Strategic Plan, FY 2001 – FY 2005,
                            involve earning customers’ business by providing them with
                            world-class quality at competitive prices; generating
                            financial performance that assures the commercial viability
                            of the Postal Service as a provider in a changing,
                            competitive marketplace; and generating a positive cash
                            flow to finance investments for the future while providing
                            competitively-priced products and services.

                            Rather, the Inspection Service initiated fraud against
                            government investigations to help address public concerns
                            that impact the mail and the Postal Service’s integrity.
                            Specifically, fraud against government investigations helped
                            maintain the sanctity of the mail and the public’s positive
                            image of the Postal Service through helping ensure the mail
                            is safely and securely used to carry out commerce, and is
                            not used to further illegal activity directed at other
                            government agencies.

                            Inspection Service officials stated that the priorities of the
                            Inspection Service, which was funded by the Postal Service
                            at a cost of $465 million during FY 2001, are not dictated by
                            the Postal Service. Rather, the Inspection Service is a
                            federal law enforcement agency with the statutory authority
                            to enforce over 200 federal laws.

                            The next 5 years are a critical period for the Postal Service.
                            They will test whether the Postal Service can meet the
                            tough challenges of continued service improvements,
                            significant cost reductions, and productivity increases, while
                            growing the core business. The postmaster general
                            recently stated that the Postal Service must grow revenue,
                            and that its first and foremost effort must be to focus on the
                            core business. Fraud against government investigations,
                            although they help maintain the public’s trust in the brand
                            name of the Postal Service, are not intended to directly
                            support this effort.

                                               4
                                    Restricted Information
Postal Inspection Service                                                      OV-AR-01-004
 Fraud Against Government Program


                            Given the Postal Service’s current financial condition, and
                            faced with the challenges of expected future losses, we
                            believe that it is important to focus on the Postal Service’s
                            efforts in achieving their performance goals, as well as how
                            other efforts, including the Inspection Service’s fraud
                            program, support these goals. Accordingly, we will continue
                            to assess the Inspection Service’s support of Postal Service
                            goals during our reviews of the Inspection Service’s fraud
                            against business and consumer programs.




                                               5
                                    Restricted Information
Postal Inspection Service                                                          OV-AR-01-004
 Fraud Against Government Program



Separate Reporting of       The Inspection Service reported all fines and restitution
Fines and Restitution       awarded as a result of task forces and joint investigations
Due to the Postal           worked, without separately identifying those monies due to
Service                     the Postal Service. Specifically, the Inspection Service
                            reported that their investigative efforts resulted in fines and
                            restitution totaling $491 million during the time period
                            reviewed, October 1997 through August 2000. However, of
                            these funds, only $2.9 million was awarded to the Postal
                            Service. The Inspection Service reported fines and
                            restitution to the Congress, Board of Governors, Postal
                            Service management, and external agencies.

                            For example, postal inspectors participated on a health care
                            fraud task force that conducted an investigation resulting in
                            the award of $6.3 million in fines and restitution. However,
                            the Inspection Service reported the entire $6.3 million,
                            without identifying that less than $43,000 in fines was
                            actually awarded to the Postal Service. In another example,
                            inspectors participated in a joint investigation and reported
                            almost $1.5 million in restitution, yet did not identify that the
                            Postal Service would not receive any of the funds awarded.

                            The Inspection Service Manual requires that inspectors
                            report all court-ordered fines and restitution awarded on
                            investigations worked, but does not require the separate
                            reporting of those fines and restitution due to the Postal
                            Service. As a result, Congress, the Board of Governors,
                            and Postal Service management could misinterpret the
                            actual monetary benefit to the Postal Service derived from
                            these investigations.

                            We benchmarked with other federal agencies and
                            determined that they, too, report all fines and restitution
                            awarded from task forces and joint investigations worked,
                            regardless of which agency was awarded the money.
                            Furthermore, we determined that these agencies did not
                            separately report funds awarded only to their agency.
                            However, we also found that monies awarded to these
                            agencies are normally deposited in the Department of
                            Treasury’s general fund, rather than provided to the
                            individual agencies. In contrast, monies awarded to the
                            Postal Service are made available to the Postal Service




                                               6
                                    Restricted Information
Postal Inspection Service                                                         OV-AR-01-004
 Fraud Against Government Program



                            only, to be used at their discretion. As a result, we believe it
                            is in the best interest of the Postal Service to identify and
                            track these funds.

                            In addition, the Inspection Service could not initially identify
                            the total amount of fines due to the Postal Service as a
                            result of fraud against government investigations.
                            Inspection Service officials stated that they did not track
                            fines awarded to the Postal Service under these
                            investigations because the total dollar amount due was
                            immaterial. Inspection Service officials were able to
                            subsequently create a report identifying total fines awarded
                            to the Postal Service for FYs 1998 through 2000. However,
                            this information was generated from an “ad hoc” computer
                            database, rather than the Inspection Service Database
                            Information System, and could not be verified for accuracy.

                            Since fines awarded to the Postal Service represent funds
                            that would be available for use once received, we believe it
                            is important that the Postal Service be aware of monies due
                            as a result of these efforts. We plan to assess the
                            Inspection Service’s process for tracking fines and
                            restitution during a follow-on review.

                            As a result of not separately reporting those fines awarded
                            to the Postal Service from task forces and joint
                            investigations worked, the benefit of fraud against
                            government investigations and their impact on the Postal
                            Service could be misinterpreted by Congress, the Board of
                            Governors, and Postal Service management. In addition,
                            management may not be aware of monies awarded to the
                            Postal Service, as a result of these investigations, to assist
                            in meeting business goals. Therefore, we believe it is
                            important that monies earmarked for the Postal Service be
                            reported separately from fines and restitution awarded to
                            other agencies.

Recommendation              We recommend that the chief postal inspector:

                               1.	 Modify the Inspection Service Manual to require the
                                   reporting of fines and restitution awarded to the
                                   Postal Service separately from fines and restitution
                                   awarded to other agencies as a result of fraud
                                   against government investigations.


                                               7
                                    Restricted Information
Postal Inspection Service                                                        OV-AR-01-004
 Fraud Against Government Program




Management’s                Management partially agreed with the recommendation
Comments                    stating that, during FY 2002, they will explore the feasibility
                            and cost effectiveness of modifying their existing database
                            information system and reporting requirements to add a
                            separate breakdown of fines due to the Postal Service.
                            Management stated that the database information system is
                            the recognized Inspection Service system for reporting
                            agency statistics. Management further stated that in the
                            interim, they will continue to maintain their manual ad hoc
                            system of tracking this information in the event it is needed
                            and published. Management stated that although ad hoc
                            systems can provide accurate information, they generally
                            provide an interim solution and may require additional
                            manual effort.

                            Although management agreed to explore the feasibility and
                            cost effectiveness of modifying their existing system, they
                            stated that they met with officials from the Postal Service
                            Corporate Accounting Office to determine their interest in
                            the separate tracking and reporting of fines and restitution
                            due to the Postal Service. According to Inspection Service
                            management, Corporate Accounting officials stated that
                            fines and restitution due to the Postal Service were too
                            “immaterial” to justify the costs in resources to track and
                            verify these funds, and uncertainty existed as to whether the
                            funds would ever actually be collected.

Evaluation of               Management’s comments are not fully responsive to the
Management’s                recommendation. We continue to believe that fines and
Comments                    restitution awarded to the Postal Service should be reported
                            separately from total fines and restitution awarded from task
                            forces and joint investigations worked. As identified in the
                            report, fines awarded to the Postal Service as a result of
                            these investigations can be used at the discretion of Postal
                            Service management, unlike fines generated from
                            investigations conducted by other federal agencies, which
                            are provided to the Department of Treasury.

                            The Inspection Service already maintains an ad hoc system
                            that separately tracks fines and restitution due to the Postal
                            Service. Further, although Inspection Service officials
                            stated that they preferred exploring the modification of their



                                               8
                                    Restricted Information
Postal Inspection Service                                                       OV-AR-01-004
 Fraud Against Government Program



                            existing database information system to track this
                            information, officials agreed that their ad hoc system can
                            provide accurate information for reporting purposes.

                            In addition, we did not recommend that the Postal Service
                            Corporate Accounting Office separately track and report
                            fines and restitution due to the Postal Service. Rather, we
                            recommended that the Inspection Service report this
                            information separately from total fines and restitution
                            awarded on task forces and joint investigations worked.
                            However, we contacted officials from the Postal Service
                            Corporate Accounting Office to obtain their position
                            regarding the Inspection Service’s separate reporting of
                            fines and restitution due to the Postal Service. Officials
                            stated that they had no objections to the Inspection Service
                            separately tracking and reporting this information. In
                            addition, officials stated that this information could be
                            tracked and reported outside of the Inspection Service’s
                            Database Information System.

                            If the Inspection Service determines that it is not cost
                            effective to modify their existing database information
                            system to track fines and restitution awarded to the Postal
                            Service, we believe that they should utilize their ad hoc
                            system to track and report this information. Accordingly, we
                            view this recommendation as unresolved and plan to pursue
                            it through the formal audit resolution process.




                                               9
                                    Restricted Information
Postal Inspection Service                                                        OV-AR-01-004
 Fraud Against Government Program



Accuracy of Arrest          We could not determine the accuracy of arrest and
and Conviction              conviction statistics reported for the fraud against
Statistics                  government program. Inspection Service case files and
                            database information did not fully identify the investigative
                            activity performed by the Inspection Service while
                            participating in task forces and joint investigations. As a
                            result, we could not determine whether arrest and conviction
                            statistics were appropriately reported for these
                            investigations.

                            We could not identify the investigative activity conducted by
                            the Inspection Service for 6 of the 39 task forces and joint
                            investigation case files reviewed, and 18 of the 39 task
                            forces and joint investigations selected for review in the
                            Inspection Service database. These cases resulted in the
                            Inspection Service reporting 34 arrests and 33 convictions
                            for investigations where the Inspection Service did not
                            adequately document their investigative activity.

                            For example, two inspectors devoted a total of 5 work hours
                            to a case on social security benefits fraud that was open for
                            480 days. However, the inspectors did not document their
                            investigative activity conducted on the case, yet reported an
                            arrest and conviction. In another example, two inspectors
                            devoted a total of 16 work hours to a case on health care
                            fraud that was open for 729 days. However, the inspectors
                            did not document their investigative activity conducted on
                            the case, but reported an arrest and conviction.

                            The Inspection Service Manual requires that investigative
                            efforts motivate and materially contribute to the identity and
                            arrest of a person for a Postal Service crime in order to
                            report arrest and conviction statistics. The Inspection
                            Service Manual further requires that inspectors maintain a
                            record of the investigation in the case files, to include
                            complete, detailed notes of steps taken during the
                            investigation; prepare reports summarizing significant case
                            developments in the Inspection Service database; and that
                            management review and approve all documented case
                            summaries.

                            Inspection Service management did not ensure that
                            inspectors fully documented the investigative activity
                            conducted on these investigations as required by the
                            Inspection Service Manual. While it is possible statistics

                                              10
                                    Restricted Information
Postal Inspection Service                                                       OV-AR-01-004
 Fraud Against Government Program


                            may have been appropriately reported even though the
                            investigative activity conducted was not documented, we
                            believe that it may be difficult for management to make this
                            determination since investigations are monitored, to a large
                            extent, through the review of the Inspection Service
                            database and case files.

                            We benchmarked with other federal law enforcement
                            agencies to determine their practices for reporting arrest
                            and conviction statistics and documenting the investigative
                            activity conducted. We determined that these agencies
                            require that investigators actively participate in
                            investigations in order to report arrests and convictions. We
                            also identified that these agencies require investigators to
                            fully document the investigative activity conducted on these
                            investigations so that an individual unfamiliar with the case
                            could determine the work performed.

                            Inspection Service officials stated that they consider arrest
                            and conviction statistics when determining the appropriate
                            allocation of resources within the fraud program. Officials
                            further stated that they determine whether arrest and
                            conviction statistics are properly reported by overseeing the
                            investigative activity conducted, largely by reviewing the
                            Inspection Service database and case files. Without fully
                            documenting the investigative activity conducted on task
                            forces and joint investigations, management cannot be
                            certain that they are reporting accurate program statistics,
                            and that resources are appropriately allocated to these
                            investigations.

Recommendation              We recommend the chief postal inspector:

                               2. Require that all investigative activity conducted on
                                  fraud against government investigations be
                                  documented in the Inspection Service database and
                                  case files in accordance with the Inspection Service
                                  Manual.

Management’s                Management agreed with the recommendation and stated
Comments                    that they recognize there are opportunities for improvement
                            in this area. Management further stated that they are
                            conducting a process improvement initiative for case file
                            management, which will continue into FY 2002.
                            Management added that they also plan to implement other
                            initiatives to reinforce their commitment to case

                                              11
                                    Restricted Information
Postal Inspection Service                                                       OV-AR-01-004
 Fraud Against Government Program


                            management, including increased case management
                            supervision, training for Inspection Service managers, and
                            the addition of a case management module for in-service
                            training courses.

Evaluation of               Management’s comments are responsive to the
Management’s                recommendation. It is important that Inspection Service
Comments                    management require their inspectors to adequately
                            document their investigative activity in accordance with
                            established policy. Adequate documentation will assist
                            management in ensuring that associated statistics are
                            appropriately reported, and resources effectively allocated.

Recommendation                 3.	 Require that arrest and conviction statistics are
                                   reported only when inspectors motivate and
                                   materially contribute to investigations in accordance
                                   with the Inspection Service Manual.

Management’s                Management agreed with the recommendation stating that
Comments                    they recognize that opportunities exist for improvements in
                            case file management, and that these opportunities will be
                            addressed during their ongoing process improvement
                            initiative. Management further stated that Inspection
                            Service policy already requires that arrest and conviction
                            statistics be reported only when the Inspection Service
                            motivates and materially contributes to the investigation.
                            Management added that Inspection Service policy also
                            permits the claiming of statistics when the inspector’s
                            investigation of a Postal Service offense develops additional
                            significant evidence which is brought to the prosecutor’s
                            attention.

Evaluation of               Management’s comments are responsive to the
Management’s                recommendation. Inspection Service management should
Comments                    ensure that inspectors motivate and materially contribute to
                            investigations, which may include the development of
                            significant evidence, before reporting arrest and conviction
                            statistics. We recognize in the report that Inspection
                            Service policy already requires this level of contribution
                            before associated statistics can be reported.




                                              12
                                    Restricted Information
Postal Inspection Service                                                        OV-AR-01-004
 Fraud Against Government Program


                            APPENDIX A.

                  STATISTICAL SAMPLING FOR FRAUD

                       AGAINST GOVERNMENT

PURPOSE OF THE SAMPLING

The audit included an assessment of the Inspection Service’s involvement with
task forces or joint investigations. In support of this assessment, the audit team
employed a stratified sample design that allowed statistical projection of a
review of the Inspection Service’s participation in individual cases within the
fraud against government program.

DEFINITION OF THE AUDIT UNIVERSE

The audit universe consisted of individual cases that were closed between
October 1, 1997, and August 29, 2000, based on information obtained from the
Inspection Service database. The subject code for area cases was excluded
from the audit coverage. From the Inspection Service database, the audit team
identified the list of cases that met the timeframe criterion, resulting in an audit
universe of 433 cases of fraud against government, with area cases excluded
from the universe. The Inspection Service was the source of the database
information. The Inspection Service database information did not include all
factors necessary to refine the universe listing before the selection of the
sample. For example, not all cases could be identified from the database as
being a task force or joint investigation.

The database also identified a total of 231,897 work hours for the fraud against
government program for FYs 1998 through 2000, for those subject codes that
were not area cases. The audit team conducted a supplemental review of the
database information for subject code 606 (health care fraud), because that
code constituted about one-third of the work hours. We were concerned that
there might be cases containing a large number of hours that were specifically
Postal Service related rather than task force and joint investigation related, to
the extent that a ratio projection would not be applicable. No such dedicated
Postal Service cases could be detected in the database information. We
recognize that there is about a 1 month discrepancy in the total period covered
by the cases and the work hours, and did not attempt to make any work hour
adjustments for that 1 month.

SAMPLE DESIGN AND MODIFICATIONS

This audit used a stratified sample design with fraud cases allocated into
two categories based on the case subject codes. The audit team allocated the
subject codes to the strata based on the audit team’s assessment of the
subject’s “probable utility to the Postal Service” (high versus low). A total of
51 cases of fraud against government were randomly selected for review, to

                                              13
                                    Restricted Information
Postal Inspection Service                                                                             OV-AR-01-004
 Fraud Against Government Program


provide a two-sided 95 percent confidence interval with approximately
13 percent precision, based on evaluator expectations of approximately a
50 percent level of compliance on one or more attributes. The sample selection
was random within each stratum, with 40 cases from stratum I (NI=422) and
11 cases from stratum II (NII=11).

The sample size was based on an evaluation of attributes associated with the
case files. The audit team decided to include the work hours associated with
cases, which is a variable rather than an attribute. Individual casework hour
information was not accessible until individual case records were reviewed.

STATISTICAL PROJECTIONS OF THE SAMPLE DATA

Sample attribute data was projected using the formulas for estimation of a
population proportion for a stratified sample, as described in Chapter 5 of
Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, c.1996.
Additionally, the presence of non-task force cases necessitated computations
for subpopulations for one attribute, because the database could not be
searched to remove other such cases from the universe. Physical review of the
source documents for all cases in the universe would have been required. To
perform the subpopulation calculations, we adapted the formulas from
Chapter 11 (Estimation of Means and Totals Over Subpopulations) of
Elementary Survey Sampling, Scheaffer, Mendenhall, and Ott, for use with
stratified samples. For all attributes, the universe size is 433 cases.

We applied the ratio estimation methodology found in Chapter 6 of Elementary
Survey Sampling to calculate total work hours for task forces and joint
investigations. The work hours associated with task forces and joint
investigations in the sample were divided by the total work hours to obtain the
ratio factor for the calculation. We applied a factor of (1+1/n) to the bound to
account for bias6 associated with use of a ratio estimation methodology.

In making the projections, we included the effect of the single missing case file
by treating the missing case file as not involving a task force or joint
investigation. Because the missing case was in the small, census stratum, it
had very little effect on the projections.




6
 The use of 1/n in calculating ratio estimate bias is based on discussions in Chapter 6 of Sampling
Techniques, Cochran, 1977.

                                                    14
                                          Restricted Information
Postal Inspection Service                                                     OV-AR-01-004
 Fraud Against Government Program



CASES RELATED TO EXTERNAL TASK FORCES OR JOINT
INVESTIGATIONS

Based on projection of the sample results, we are 95 percent confident that
341 to 424 cases were related to external task forces or joint investigations
(78.9 percent to 98 percent of the audit universe). The unbiased point estimate
is that 383 of the cases, or 88.4 percent of the audit universe, were related to
external task forces or joint investigations. [The missing file is counted as not
involving a task force or joint investigation.]

EXTERNAL TASK FORCE AND JOINT INVESTIGATIONS WORK HOURS

In the sample, we observed external task force and joint investigations work
hours ranging from 1 hour to 1,743 hours; across the two strata, the sample
taskforce work hours totaled 8,244 out of the sample total of 9,027 work hours.
We calculate that the total external task force and joint investigations work
hours amount for FYs 1998 through 2000 (based on cases only through
August 29) is between 205,128 and 218,437 hours. The unbiased estimate of
the FYs 1998 through 2000 (through 29) total external task force or joint
investigations work hours amount is 211,782. [The missing file is counted as
not involving a task force or joint investigation.]




                                              15
                                    Restricted Information
Postal Inspection Service                                    OV-AR-01-004
 Fraud Against Government Program


              APPENDIX B. MANAGEMENT’S COMMENTS





                                              16
                                    Restricted Information
Postal Inspection Service                                    OV-AR-01-004
 Fraud Against Government Program




                                              17

                                    Restricted Information
Postal Inspection Service                                    OV-AR-01-004
 Fraud Against Government Program




                                              18

                                    Restricted Information
Postal Inspection Service                                    OV-AR-01-004
 Fraud Against Government Program




                                              19

                                    Restricted Information
